No: 20-7377
In The
Supreme Court of the United States
BENJAMIN DRAKE DALEY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 16th day of March, 2021, in accordance with SUP. CT. R. 29,
that the original and ten copies of this First Supplemental Brief for the Petitioner were
sent by the United Parcel Service to the Clerk’s Office of the Supreme Court of the
United States, and that I further served one copy of the First Supplemental Brief for
the Petitioner, by the Untied States Parcel Service and by emailing a PDF copy to
Solicitor General of the United States
U.S. DEPARTMENT OF JUSTICE
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

JUVAL O. SCOTT
Federal Public Defender
/s Lisa M. Lorish
Lisa M. Lorish
Counsel of Record

Assistant Federal Public Defender
Office of the Federal Public Defender
for the Western District of Virginia
401 E. Market St., Ste 106
Charlottesville, VA 22902
(434) 220--3380
lisa_lorish@fd.org

